     NATIONAL 

     ARCHIVES 

            OFFICE ~f
 INSPECTOR GENERAL


     Date: 	       February 23,2012

     Reply to
    Attn of: 	     Office ofInspector General (OIG)

     Subject: 	    Audit Memorandum #12-07: Audit ofNARA's Compliance with the Improper Payment
                   Elimination and Recovery Act of 2010

    To: 	          David S. Ferriero, Archivist of the United States (N)


    Pursuant to Section 3(b) of the Improper Payments Elimination and Recovery Act of2010
    we have reviewed the National Archives and Records Administration's (NARA) improper
    payment reporting in NARA's fiscal year (FY) 2011 Performance and Accountability Report
    and accompanying materials, to determine ifNARA is in compliance with the Improper
    Payments Information Act of 2002, as amended (IPIA).

    NARA reported in its FY 2011 Performance and Accountability Report that "During fiscal
    year 2011, NARA performed the risk assessment required by FY 2011 OMB Circular A-I23,
    APPENDIX C - Improper Payments Information Act of 2002 (IPIA), as amended, and
    presented the results of the evaluation to the Office of Management and Budget for review
    and approval. NARA did not identify any programs or activities that may be susceptible to
    significant improper payments and has determined that payment recapture audits would not
    be cost-effective at this time."

    Significant improper payments are defined as the total amount of overpayments plus
    underpayments in a program exceeding (1) both 2.5 percent of program outlays and $10 million
    of all program or activity payments made during the fiscal year or (2) $100 million (regardless
    of the improper payment percentage of total program outlays).

    We reviewed NARA's risk assessment process, internal control tests and reviews, and trial 

    balances used in determining that NARA programs or activities were not susceptible to 

    significant improper payments. We also reviewed NARA's analysis in determining no 

    recapture payment audits were needed. 



 NATIONAL ARCHIVES         and
 RECORDS ADMINISTRATION

8601 ADELPHI 	ROAD, ROOM 1300
COLLEGE PARK. MD 20740-6001
       wlVw.archivcs,gov
NARA"s work in determining that NARA programs or activities were not susceptible to
significant improper payments and NARA's analysis in determining no recapture payment
audits were needed appeared to be sufficient and reasonable. We believe NARA instituted a
systematic repeatable method of reviewing all programs to identify programs susceptible to
significant improper payments. This systematic method took into account risk factors likely
to contribute to significant improper payments.

As a result of our review we believe NARA is in compliance with the intent of the Improper
Payments Information Act of 2002, as amended. Because we had no findings we are
reporting our results in this Audit Memorandum format.

As with all OIG products, we will determine what information is public ally posted on our
website from this memorandum. Should you or management have any redaction suggestions
based on FOIA exemptions, please submit them to my counsel within one week from the date of
this letter. Should we receive no response from you or management by thistimeframe, we will
interpret that as confirmation NARA does not desire any redactions to the posted report.

Should you have any questions concerning this effort, or require additional information, please
contact me on
(301) 837-3000.


Respectfully,

           ('
           I




Paul Brachfeld /
                t
Inspector General



cc: Senator Joe Lieberman, Chair, U.S. Senate Committee on Homeland Security &
        Governmental Affairs
    Representative Darrell Issa, Chair, the House Committee on Oversight and Government Reform
    Representative Elijah Cummings, Ranking Member, the House Committee on Oversight and
       Government Reform 

    Gene L. Dodaro, Comptroller General of the United States 

    Danny Werfel, Controller of the Office of Management and Budget 

